.PeV>'V\on for \j^\V oPdert-iovav^

Plop>°^Av,rgj^

f\)jj€.0<b\Dn OP the. f\Rh ClvtluiV a^toPfi^^s

^ rOemQrao^um arA DrAar e>P
X ^ntVv^t^tt^crncwarvLfnXtosV A.l^nVib^^
-i^.-V -Vht Li,S. \XsY CiDwt beoA me. aatoorYesy-cc^/
The. cr^y vs a^r 0*s Ch4>V ccoft.^ so\ vJ. XeoYVi £>T YSbovo
2d\D toKt. Liov^iiV)) IX r74)£&>*
5, ?e.YAvcjv\ for 'Ce.Viearvm^Dbt e>v Yirne. U&£8^ ur\\c A

fact e.r'\m.A^ mor^
ocAtv "^ne- SYcA«-

V^ejmcA

\;La\dy, ftr uirXfaO Ymb-eas,

X AorX We. n V cAtfo ■

/£> -Xtf-zod-g

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
United States Court of Appeals
Fifth Circuit

No. 17-11379

FILED
April 1, 2020
Lyle W. Cayce
Clerk

FINNIS DAVIS, II,
Petitioner-App ellant
v.

LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,

CRIMINAL

Respondent-Appellee

Appeals from the United States District Court
for the Northern District of Texas
USDC No. 4:16-CV-15

Before DENNIS, ELROD, and DUNCAN, Circuit Judges.
PER CURIAM:*
Finnis Davis, II, Texas prisoner # 1779538, was convicted by a jury of
attempted capital murder and was sentenced to 50 years in prison. The district
court denied his 28 U.S.C. § 2254 petition on the merits. Davis now requests
a certificate of appealability (COA) to appeal the denial of his petition as well
as the denial of his subsequent Federal Rule of Civil Procedure 59(e) motion to
amend the judgment denying his petition.

* Pursuant to 5TH ClR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5TH
ClR. R. 47.5.4.

Pi

€.ncll \ A-ft

No. 17-11379
Davis argues that the district court erred in (1) denying his Rule 59(e)
motion; (2) denying his § 2254 petition because (a) he received ineffective
assistance of counsel, (b) the prosecutor engaged in misconduct, (c) the trial
court violated his due process rights by failing to inquire into his competency
or to investigate his complaints about counsel, and (d) the evidence was
insufficient to support his conviction; and (3) denying his motions for an
evidentiary hearing and for discovery. Davis’s motion to supplement his COA
motion is GRANTED. His emergency motion for an evidentiary hearing and
discovery and motion for the court to review evidence are DENIED AS MOOT.
To obtain a COA, a petitioner must make “a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Where a district court
has denied claims on the merits, a petitioner must show “that jurists of reason
could disagree with the district court’s resolution of his constitutional claims
or that jurists could conclude the issues presented are adequate to deserve
encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
Davis first challenges the district court’s denial of his Rule 59(e) motion.
In that motion, Davis essentially challenged the district court’s decision on the
merits, asserting that the legal reasoning behind the determination was
flawed. Thus, to the extent that his motion raised new claims for relief or
challenged the district court’s resolution of his claims on the merits, it was a
successive § 2254 petition requiring authorization from this court, which Davis
did not receive. See Gonzalez v. Crosby, 545 U.S. 524, 532 (2005); Williams v.
Thaler, 602 F.3d 291, 302 (5th Cir. 2010). The district court lacked jurisdiction
over these portions of the motion. See § 2244(b)(3)(A); United States v. Key,
205 F.3d 773, 774 (5th Cir. 2000). To the extent that Davis purported to attack
a defect in the habeas proceedings by alleging that the district court erred in

2

No. 17-11379
denying his motion for discovery, he has not shown that reasonable jurists
would debate the issue, as demonstrated by our discussion of the denial of the
discovery request, infra. Davis accordingly fails to show that any claims over
which the district court had jurisdiction deserve encouragement to proceed
further. See Miller-El, 537 U.S. at 327.
We next address Davis’s claims of ineffective assistance of counsel.
Davis contends on appeal that he received ineffective assistance of trial counsel
because counsel (1) informed the judge of his belief that Davis was about to
commit perjury; (2) failed to obtain Roney’s medical records and cross-examine
the treating paramedic; (3) failed to communicate the State’s original plea offer
to Davis; (4) failed to request a competency hearing; (5) failed to investigate
Davis’s history of mental illness to develop a possible insanity defense; and (6)
failed to fully investigate and develop evidence regarding one of the victim’s
statements to the police and during the trial and failed to obtain ballistics
evidence to undermine her testimony.

After reviewing the record and an

affidavit submitted by counsel, the state habeas court considered and rejected
Davis’s ineffective assistance of counsel claims, making numerous factual
findings, including that counsel properly investigated the case, his decisions
were the result of reasonable trial strategy, and that no prejudice resulted from
any alleged deficiency.
would

debate

whether

Davis cannot demonstrate that reasonable jurists
these

findings

and

conclusions

involved

an

unreasonable determination of the facts or an unreasonable application of
clearly established federal law. See Harrington v. Richter, 562 U.S. 86, 103
(2011); Strickland v. Washington, 466 U.S. 668, 688 (1984); United States v.
Bernard, 762 F. 3d 467, 477 (5th Cir. 2014); Pondexter v. Quarterman, 537 F.3d
511, 524 (5th Cir. 2008); Miller v. Johnson, 200 F.3d 274, 282 (5th Cir. 2000).

3

No. 17-11379
Davis next asserts that the prosecutor in his case engaged in misconduct
by failing to enter one of the victim’s medical records into evidence and relying
on false testimony from the other victim,

The state habeas court, in

adjudicating this claim, determined that Davis had pointed merely to
inconsistent testimony and had not provided any evidence that the victim’s
testimony was false and provided no evidence that the prosecution withheld
pertinent medical records. Davis has not shown that reasonable jurists could
debate whether the state court’s ruling on these points was “so lacking in
justification that there was an error well understood and comprehended in
existing law beyond any possibility for fairminded disagreement.” Richter, 562
U.S. at 103.

Moreover, Davis cannot show a Brady violation by virtue of

allegedly withheld medical records, because the same information was
obtained through testimony. See Brady v. Maryland, 373 U.S. 83, 87 (1963).1
Davis also asserts that the state trial court should have inquired more
deeply into his competency due to his “unusual” and “disruptive courtroom
behavior.” In addressing Davis’s competency claim, the state appellate court
noted that the trial court found Davis incompetent to stand trial in September
2011 and committed him to a mental health facility for an evaluation. Davis
v. State, No. 02-12-00163-CR, 2013 WL 5781489, at *2 (Tex. App. Oct. 24, 2013)
(unpublished). The trial court then relied on a report from the North Texas
State Hospital notifying the court that Davis had regained competency, and
that the trial court was not required to hold an evidentiary hearing and could
rely on the report to determine that Davis had regained competency. Davis,
2013 WL 5781489, at *2. Davis points to his outbursts at trial as reflecting
1 Additionally, we conclude the district court did not abuse its discretion in denying,
in the exercise of its discretion, discovery of the victim’s medical records, because Davis had
not shown “good cause” as required by the Federal Rules Governing § 2254 Cases. See Hill
v. Johnson, 210 F.3d 481, 487 (5th Cir. 2000); Clark v. Johnson, 202 F.3d 760, 765-66 (5th
Cir. 2000).
4

No. 17-11379
incompetency and requiring a sua sponte competency hearing, but, as the state
appellate court noted, the trial court did not abuse its discretion in refusing to
hold a competency hearing, because “it is clear the trial judge believed
appellant understood everything that was occurring and was merely being
intentionally argumentative and disruptive.” Id. at *5. We cannot conclude
that the state court’s ruling was “so lacking in justification that there was an
error well understood and comprehended in existing law beyond any possibility
for fairminded disagreement.” Richter, 562 U.S. at 103.
Davis next asserts that insufficient evidence supports his conviction.
The standard for testing the sufficiency of the evidence in federal habeas
review of a state court conviction is whether, “after viewing the evidence in the
light most favorable to the prosecution, any rational trier of fact could have
found the essential elements of the crime beyond a reasonable doubt.” Jackson
v. Virginia, 443 U.S. 307, 319 (1979). Davis cannot meet this standard, as he
challenges the jury’s credibility determinations and weighing of the evidence.
He thus cannot show that the finding of guilt “was so insupportable as to fall
below the threshold of bare rationality.” Herrera v. Collins, 506 U.S. 390, 656
(1993).
Finally, Davis challenges the district court’s denial of his request for an
evidentiary hearing on his habeas petition. Under AEDPA, a district court has
the discretion to hold an evidentiary hearing in a § 2254 proceeding, subject to
statutory limits on considering evidence not presented to or developed in the
state courts. See Cullen v. Pinholster, 563 U.S. 170, 181-82, 185-86 (2011);
Blue v. Thaler, 665 F.3d 647, 655-56 (5th Cir. 2011); § 2254(d), (e)(2). Davis
does not articulate how the district court would have been able to consider any
new evidence, and therefore has not shown that the district court erred in
denying such a hearing. See Pinholster, 563 U.S. at 181, 185-86; § 2254(d).

5

No. 17-11379
For these reasons, Davis has thus not made the requisite showing for a
COA on any issue. Accordingly, his motion for a COA is DENIED. We construe
Davis’s motion for a COA with respect to the district court’s denial of an
evidentiary hearing as a direct appeal of that issue, see Norman v. Stephens,
817 F.3d 226, 234 (5th Cir. 2016), and AFFIRM.
COA DENIED; AFFIRMED.

6

Case: 17-11379

Document: 00515427761

Page: 1

Date Filed: 05/26/2020

IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 17-11379

FINNIS DAVIS, II,
Petitioner - Appellant
v.
LORIE DAVIS, DIRECTOR, TEXAS DEPARTMENT OF CRIMINAL
JUSTICE, CORRECTIONAL INSTITUTIONS DIVISION,
Respondent - Appellee

Appeals from the United States District Court for the
Northern District of Texas

ON PETITION FOR REHEARING
Before DENNIS, ELROD, and DUNCAN, Circuit Judges.
PER CURIAM:
IT IS ORDERED that Appellant's motion for leave to file petition for
rehearing out of time is GRANTED. IT IS FURTHER ORDERED that the
petition for rehearing is DENIED;

ENTERED FOR THE COURT:
Is/ James L. Dennis
UNITED STATES CIRCUIT JUDGE

v* -C_

Case4:l6-cv-000l5-A Document 55 Filed 11/03/17
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
FORT WORTH DIVISION
FINNIS DAVIS II,
Petitioner,
\

v.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

FILED
NOV -3 2017

CLERK, U.S. DISTRICT COURT
By
Deputy

No. 4:16-CV-015-A

ORDER
Came on for consideration the motion of petitioner, Finnis
Davis II, to alter or amend the court's judgment denying habeas
relief pursuant to Rule 59(e) of the Federal Rules of Civil
Procedure.

(Mot., doc. 54.) Having considered the motion, the

court concludes that it should be denied, essentially for the
same reasons set forth in the court's memorandum opinion and
order signed October 20, 2017.

Therefore,

The court ORDERS that petitioner's motion to alter or amend
the judgment be, and is hereby, denied.
SIGNED November

3-

, 2017.

/jpRN MCBRYDE
NITED STATES DISTRICTS JUDGE

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17

Page 1 of 42 Page ID 1992

U-S-MS'mtCT COURT
NORTHERN DISTRICT OF TEXAS
IN THE UNITED STATES DISTRICT COURT
FILED
FOR THE NORTHERN DISTRICT OF TEXAS I

OCT 20 2017

FORT WORTH DIVISION
FINNIS DAVIS II,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional
Institutions Division,
Respondent.

§
§
§
§
§
§
§
§
§
§
§
§

I ^ CLERK, US. DISTRICT COURT

II*'

Deputy

No. 4:16-CV-015-A

MEMORANDUM OPINION
and
ORDER
This is a petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254 filed by petitioner, Finnis Davis II, a state
prisoner incarcerated in the Correctional Institutions Division
of the Texas Department of Criminal Justice (TDCJ), against Lorie
Davis, director of TDCJ, respondent. After having considered the
pleadings, state court records, and relief sought by petitioner,
the court has concluded that the petition should be denied.
I. Procedural History
Petitioner was charged in Tarrant County, Texas, Case No.
1199412D, with attempted capital murder of Saudi Taylor and Oscar
Roney during the same criminal episode.

(State Habeas R. 265,

doc. 24-42.) A jury found petition guilty and found the repeat-

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 2 of 42 PagelD 1993
offender notice in the indictment true and assessed his
punishment at fifty years' imprisonment. (Jd. at 267.) The Second
District Court of Appeals of Texas affirmed the trial court's
judgment, the Texas Court of Criminal Appeals refused his
petition for discretionary review, and the United States Supreme
Court denied his petition for writ of certiorari. (Docket Sheet
1, doc. 24-2.) Petitioner also sought postconviction state
habeas-corpus relief to no avail. This federal habeas-corpus
petition followed.
The state appellate court summarized the evidence in the
case as follows:
The evidence shows that appellant became
possessive of Taylor, whom he knew, sending her dozens
of text messages a day. Some of those messages were
abusive and threatening. On May 3, 2010, Taylor had a
first date with Roney. Appellant's text messages to
Taylor that night indicate he knew she was out with a
man and was upset about it. When the two returned to
Taylor's home after the date, Taylor saw appellant
sitting in his car backed into her driveway. Taylor
told Roney to keep driving, and appellant began
following them around the block. When they returned to
Taylor's house, appellant hit the back of Roney's car
with his car and began shooting at them; he then
blocked off Roney's car. At that point, Taylor saw
Roney slumped over the wheel with blood all over his
shirt. After he blocked Roney's car, appellant got out
of his car and "started shooting at [Roney's] car."
Taylor testified that appellant "shot at" both of them
and that he shot inside Roney's car from the driver's
side. Taylor testified that appellant shot her in the
thigh. Taylor got out of the car, and appellant chased

2

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 3 of 42 PagelD 1994
after her; when he caught her, he pistol-whipped her
while yelling that he was going to kill her.
Roney testified that appellant "stuck a gun in
[his] window" and that he heard a shot from the gun. He
said he had been shot behind his left ear. Police found
blood on the driver's side and what looked like bullet
holes in the driver's side doorposts. Additionally,
about a month before trial, Roney was washing his hair
and pulled out "a little piece of fragment" about a
centimeter long, but he let it go down the shower
drain. One of the police officers who investigated the
crime scene testified that Roney was possibly hit by a
bullet that had ricocheted or fragmented from hitting
the driver's side doorpost. A paramedic who had treated
Roney at the scene testified that although the wound
looked like it had a "penetration point" and was some
kind of "entrance wound," it did not look like a
gunshot wound.
Taylor and Roney both identified appellant in
court as the person who "shot at" them.
(Mem. Op. 2-3, doc. 24-4.)
II. Issues
Petitioner raises the following grounds for relief:
(1)

There is no evidence to prove the "essential
element of shooting two people" as charged in the
indictment (ground one);

(2)

The trial court erred, after defendant was first
found by psychiatrists to be incompetent, by
declaring him competent to stand trial and failing
to conduct a competency hearing (ground two);

(3)

The trial court abused its discretion by failing
to sua sponte inquire into his mental capacity
because his irrational behavior raised a bona fide
doubt as to his competency to stand trial (ground
three);

3

Case 4:16-cv-00015-A Document 52 Filed 10/20/17

Page 4 of 42 PagelD 1995

(4)

the state habeas court improperly decided his
ineffective-assistance-of-counsel claims (ground
four);

(5)

He was denied the right to effective assistance of
trial counsel (grounds five through thirteen);

(6)

The trial court failed to conduct an inquiry into
his complaint about his trial counsel (ground
fourteen); and

(7)

The state engaged in prosecutorial misconduct and
JBrady violations (ground fifteen) .

(Pet. 6-7 & Insert, doc. 1.)
III. Rule 5 Statement
Respondent does not believe that the petition is time-barred
or successive but does believe that petitioner has failed to
exhaust one or more of his claims in state court.

(Resp't's

Answer 5, doc. 25.) 28 U.S.C. §§ 2244(b), (d) & 2254(b). However,
a § 2254 petition may be denied on the merits notwithstanding a
petitioner's failure to exhaust state-court remedies. Id. §
2254 (b) (2) .
IV. Discussion
A. Legal Standard for Granting Habeas Corpus Relief

A § 2254 habeas petition is governed by the heightened
standard of review provided for by the Anti-Terrorism and
Effective Death Penalty Act (AEDPA). 28 U.S.C. § 2254. Under the
Act, a writ of habeas corpus should be granted only if a state

4

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 5 of 42 PagelD 1996

court's adjudication of a claim resulted in a decision that is
contrary to or an unreasonable application of clearly established
federal law as determined by the United States Supreme Court or
resulted in a decision that is based on an unreasonable
determination of the facts in light of the record before the
state court. 28 U.S.C. § 2254 (d) (1)-(2); Harrington v. Richter,
562 U.S. 86, 100-01 (2011). This standard is difficult to meet
and "stops short of imposing a complete bar on federal court
relitigation of claims already rejected in state proceedings."
Harrington, 562 U.S. at 102.
Additionally, the statute requires that federal courts give
great deference to a state court's factual findings. Hill v.
Johnson, 210 F.3d 481, 485 (5th Cir. 2000). Section 2254(e)(1)
provides that a determination of a factual issue made by a state
court shall be presumed to be correct. The petitioner has the
burden of rebutting the presumption of correctness by clear and
convincing evidence. 28 U.S.C. § 2254(e)(1); Miller-El v.
Cockrell, 537 U.S. 322, 340 (2003); Williams V. Taylor, 529 U.S.

362, 399 (2000). Further, when the Texas Court of Criminal
Appeals denies a federal claim in a state habeas-corpus
application without written opinion, a federal court may presume
"that the state court adjudicated the claim on the merits in the

5

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 6 of 42 PagelD 1997

absence of any indication or state-law procedural principles to
the contrary" and applied the correct "clearly established
federal law, as determined by the Supreme Court of the United
States," unless there is evidence that an incorrect•standard was
applied, in making its decision. Johnson v. Williams, 568 U.S.
289, 298 (2013); Harrington, 562 U.S. at 99; Schaetzle v.
Cockrell, 343 F.3d 440, 444 (5th Cir. 2003).
B. Sufficiency of the Evidence
Under his first ground, petitioner claims there was no
medical or testimonial evidence proving that he shot two people
because there was no evidence that he intended to kill Roney or
that Roney's injury was the result of a bullet being fired at
him. Petitioner relies on the paramedic's testimony that Roney's
injury did not "look like a normal shooting." (Pet'r's Mem. 3,
doc. 2.)
In overruling the issue on appeal, the state appellate court
provided:
Appellant contends that the evidence is
insufficient to prove that Roney was actually shot;
however, he does not dispute that the evidence shows he
shot Taylor. The State was not required to prove that
appellant was successful in his attempt to mortally
wound Roney; rather, it had to prove that he intended
to kill both Taylor and Roney and with that intent,
committed "an act amounting to more than mere
preparation that tendfed] but fail[ed] to effect" their

6

Case 4:16-cv-000l5-A Document 52 Filed 10/20/17 Page 7 of 42 PagelD 1998

deaths. See [Tex. Penal Code Ann.] §§ 15.01, 19.02(b)(1),
19.03(a)(7)(A); Ex parte Milner, 394 S.W.3d502, 509
(Tex. Crim. App. 2013). The record contains sufficient
evidence from which the jury could reasonably conclude
that appellant shot at Roney and Taylor with the intent
to kill them both. See Cavazos v. State, 382 S.W.3d
377, 384 (Tex. Crim. App. 2012) {"[T]he specific intent
to kill may be inferred from the use of a deadly
weapon.").
(Mem. Op. 4, doc. 24-4.)
A claim that ''no evidence" supports a conviction is the same
as a challenge to the legal sufficiency of the evidence. Haley v.
Cockrell, 306 F.3d 257, 266-67 (5th Cir. 2002), vacated on other
grounds, 541 U.S. 386 (2004); United States v. Jackson, 86 Fed.
App'x 722, 722 (5th Cir. 2004). Such claims are reviewed under
the legal-sufficiency standard set out in Jackson v. Virginia,
443 U.S. 307 (1979). Under this standard, a court views all the
evidence in the light most favorable to the prosecution in
determining whether any rational trier of fact could have found
the existence of facts necessary to establish the essential
elements of the offense beyond a reasonable doubt. Id. at 318-19.
In conducting a Jackson review, a federal habeas court may not
substitute its view of the evidence for that of the fact finder,
but must consider all of the evidence in the light most favorable
to the prosecution, with all reasonable inferences to be made in
support of the jury's verdict. United States v. Moser, 123 F.3d

7

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 8 of 42 PagelD 1999

813, 819 (5th Cir.1997); Weeks v. Scott, 55 F.3d 1059, 1061 (5th
Cir.1995). Where a state appellate court has conducted a
thoughtful review of the evidence, its determination is entitled
to great deference. Callins v. Collins, 998 F.2d 269, 276 (5th
Cir. 1993). Under state law

specific intent to kill may be

inferred from the use of a gun, which is defined as a deadly
weapon. See Tex. Penal Code Ann. § 107(a) (17) (A)

(West Supp. 2014)

Thus, applying the appropriate deference, the state court's
adjudication of the claim comports with Jackson.
C. Trial Court Error
Under his second and third grounds, petitioner claims the
trial court erred by declaring him competent to stand trial
without conducting a competency hearing and by failing to sua
sponte inquire into his mental competency during trial because
his irrational behavior raised a bona fide doubt as to his
competency.1 (Pet. 6-7, doc. 1.)
In overruling these issues, and relying solely on state law,
the state appellate court addressed the issues as follows
Lack of Evidentiary Hearing
The trial court found appellant incompetent to
i

Respondent claims the first claim is procedurally barred, however
because the court finds the claim is without merit the procedural-default
defense is not addressed.

8

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 9 of 42 Page ID 2000

stand trial in September 2011 and ordered him committed
to a mental health facility for no more than 120 days.
On November 25, 2011, the trial court received from
North Texas State Hospital a statutory notification
indicating that an evaluator had determined that
appellant had regained competency to stand trial. See
Tex. Code Crim. Proc. Ann. art. 46B.079(b)(1) (West
Supp. 2012). The trial court ordered the notification
and attached evaluation report sealed. The record shows
that the trial court sent copies of the report to
appellant's counsel and the State and, on November 28,
2011, issued a bench warrant for appellant to be
returned to court. See id. art. 46B.081. The record
also contains a certificate of proceedings dated
December 9, 2011 and signed by the trial judge, with
the notation, "found competent."
Article 46B.084 provides that when a defendant is
returned to the trial court upon a mental health
facility's report that the defendant has gained
competency, the trial court may determine the
defendant's competency "based on the report . . . and
on other medical information or personal history
information relating to the defendant.” Id. art.
46B.084{a). The statute does not require a hearing on
the determination unless a party timely objects to the
report. Id. art. 46B.084(b). The record here contains
no objection to the sealed report filed with the trial
court. Thus, we conclude and hold that the trial court
did not err by failing to hold an evidentiary hearing
to determine that appellant had become competent to
stand trial. . . .
No Sua Sponte Competency Hearing During Trial
Appellant next argues that the trial court
reversibly erred by failing to sua sponte order a
competency hearing during trial based on his
"irrational" and "incoherent" behavior, his prior MHMR
history, his "lack of understanding of his criminal
proceeding," and his "numerous absurd and [i]nsensible
out[]burst[s]" during trial. Appellant points
specifically to a part of the record indicating that

9

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 10 of 42 PagelD 2001

the trial court chastised him because he kept turning
around and looking at his sister and because he
appeared to be attempting to show something
unidentified to the jury. He also points to his own
testimony during guilt/innocence as indicating a need
for the trial court to hold such a hearing.
Applicable Facts
Before trial, appellant had the following
conversation with the trial judge:
I don't
THE DEFENDANT: I understood
understand what's going on, period, because I
just got a six-day notice that I was going to
trial. I had no idea that I was going to
trial. Yes, I've been locked up for 23 months
but didn't nobody tell me that we was having
a trial.
I haven't been through no procedures. I
hadn't had no status conference. I hadn't
been through no motion discovery. I hadn't
even had no evidence exchange. And then plus
this, me and my lawyer, giving me
insufficient counseling, and him and the DA
been working together. My lawyer been -well, my lawyer been asking me questions
about this case. He asked me questions to
hurt me. So I have a feeling that him and the
DA is working together. That's why I was
trying to speak with you.
And they just started looking for my
witnesses last month. This case been going on
for two years. Yes, it have. And then—then
start looking for -- I have more than just
one witness. So that's what I'm trying to
say. How am I going to any chance to get a
fair trial with all these odds against me?
THE COURT: Okay. Well, number one, it sounds
like you have a firm grasp of what's going on

10

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 11 of 42 PagelD2002

and that you've been keeping up with it very
closely.
THE DEFENDANT: Right.
THE COURT: So in addition to your plea of not
guilty to the count alleging that you
committed the attempted capital murder, Count
Two alleges that you caused bodily injury to
Saudi Taylor by shooting him [sic] with a
deadly weapon.
THE DEFENDANT: That'S a her.
THE COURT: Okay. Her. You know more about it
than I do, obviously.
THE DEFENDANT: Yes, I do.
During voir dire, appellant responded to a juror's
comment that someone with a better lawyer has a better
chance of being acquitted with "Exactly."
Appellant complained to the court at trial about
his counsel:
THE DEFENDANT: I've been feeling that he's
[trial counsel] been giving me inefficient
counsel, but I don't even have an education.
I didn't even graduate from high school. So,
therefore, you got to kind of bear with me
because y'all all got degrees. I don't. So
this is going to be—it's a lot of things I
don't understand because I don't understandTHE COURT: Okay.
THE DEFENDANT:

the Court issues.

THE COURT: Talk to me about what your
complaint is with [your trial counsel]

11

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 12 of 42 PagelD 2003

THE DEFENDANT: Oh, my complaint is that I
feel that he's not representing me to the
fullest. But I don't have a problem with that
because you won't -- you wouldn't let me
replace him. I can't do nothing if you
wouldn't let me replace him. So I had to
roll with what I had. Dot my I's, cross my
T's.
THE COURT: Okay. So did I not see you shake
his hand at the end of the day yesterday and
tell him that you thought he did a good
job?
THE DEFENDANT: I said good job just one time.

yes. But he did a

Later, appellant and the trial court engaged in the
following colloquy:
THE COURT: Well, sometimes it helps if you
listen also. Yes, you have a right to
testify. Is that what you want to do?
THE DEFENDANT: I guess I have to. I mean,
y'all not going to give me a mistrial so I
can hire me a new lawyer to do this all over.
So we have to
I have to. I'm not going -I'm not going to let them hear -- let the
jury hear they side of the story and it's
another side. Every story have two sides.
This case I feel that they had their side. My
side ain't been heard. We couldn't even find
a witness.
THE COURT: All right. So the answer to my
question about whether you want to testify is
that, yes, you do, correct?
THE DEFENDANT: I have to.
THE COURT: No, you do not have to. It is your
choice.
12

Case 4:16-cv-000l5-A Document 52 Filed 10/20/17 Page 13 of 42 PagelD2004

While appellant was testifying on his own behalf,
against his counsel's advice, he wanted to address the
jury directly; the trial judge had to instruct him he
could not do so. Appellant was nonresponsive to his
counsel's questions. The trial judge then had to call a
recess to go in chambers, where defense counsel
informed her that he feared appellant was about to
commit perjury even though defense counsel had
repeatedly warned him not to do so. In open court,
before the jury returned, the trial judge warned
appellant of the consequences of perjury. She then
allowed appellant to testify narratively about the
events of May 4, 2010, but he refused to do so.
Instead, appellant kept complaining to the jury about
his lawyer and telling them that they could not convict
someone without a defense who had no education.
Appellant kept asking them, "Please give me a hung
jury." The trial judge ultimately dismissed the jury
and placed appellant in a holdover cell. Before the
jury returned, the trial judge talked to appellant
again, warning him that she was giving him a last
chance to tell the jury what happened the night of May
4, 2010. Appellant was argumentative with the trial
judge when she was attempting to explain that she was
giving him the opportunity to tell the jury his version
of what happened that day. She allowed appellant to
confer with his counsel in private.
Before the jury returned to court, appellant asked
to speak to his lawyer again, telling the judge she had
not given them enough time to finish. But the judge
told appellant she had overheard him "cussing at" his
counsel and that counsel did not "have to listen to
that." When the trial judge explained to appellant that
if he tried to tell the jury about anything other than
what happened May 4, 2010, she would "cut [him] off,"
appellant told the trial court, "I'm not behaving
irrational." The trial judge said, "I didn't say you
were behaving irrational. You're behaving like a not
very . . . [c]ooperative person." The following
exchange occurred shortly thereafter:
THE DEFENDANT: I understand. I don't

13

Case 4:16-cv-000l5-A Document 52 Filed 10/20/17

understand
understand.

Page 14 of 42 PagelD 2005

no, I take that back. I don't

THE COURT: No. I feel like you understand
perfectly.
THE DEFENDANT: You feel like I understand.
THE COURT: But you don't want to THE DEFENDANT: You feel like I understand.
THE COURT: Okay. And THE DEFENDANT: But I don't understand. But
I'm going to do the best I can.
The trial judge then brought in the jury. When
appellant again refused to address the jury about the
night of the shootings, the trial court dismissed the
jury. As they were leaving, appellant made the
following outburst:
THE DEFENDANT: Please, please -- I still be
locked up. I'm not going anywhere. If your
brothers or sisters were in there, you would
want them to have a good representation.
THE BAILIFF: Mr. Davis, be quiet.
THE DEFENDANT: Please don't hang me. I will
still be locked up.
THE BAILIFF: Mr. Davis.
THE DEFENDANT: I will have to have another
trial. Don't do me this way. I need a lawyer.
I got -- I got somebody going to buy me a
lawyer.
The trial judge placed appellant in a holdover cell
during the charge conference and closing arguments.

14

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 15 of 42 PagelD 2006

During closing, appellant's counsel told the jury,
Finally, as for Mr. Davis' conduct on
the stand, I can only say to you that you can
also conclude from all of that that Mr. Davis
is a very frightened man. Now, that doesn't
necessarily change any of the facts that lead
him to the point that he's afraid of, but it
is the state of mind that he is in.
Analysis
Appellant asserts that the above outbursts show
that the trial judge should have sua sponte held a
hearing inquiring into appellant's competence to stand
trial. We disagree.
A trial judge is required to hold a competency
hearing if the evidence is sufficient to raise a bona
fide doubt in the mind of the judge as to the
defendant's competency. Montoya v. State, 291 S.W.3d
420, 424 (Tex. Crim. App. 2009). A bona fide doubt may
exist if the defendant exhibits truly bizarre behavior
or has a recent history of severe mental illness or at
least moderate mental retardation. Id. at 425. The
considerations when evaluating competency to stand
trial include the defendant's level of understanding of
the proceeding and ability to consult with counsel in
preparation for the proceeding. Id. at 425-26. Thus,
the trial judge, as one who observed the behavior of
the defendant at the proceeding in question, is in a
better position to determine present competency. Id. at
426 .
The trial court here initially found appellant
incompetent to stand trial and referred him to North
Texas State Hospital. However, based on the hospital's
report, which we have reviewed, the trial court found
that appellant had gained competency. Although
appellant's behavior in court was inappropriate and
obstreperous, it was not "truly bizarre." In fact, from
the context of the entire record, it is clear the trial

15

Case 4:l6-cv-000l5-A Document 52 Filed 10/20/17 Page 16 of 42 PagelD2007

judge believed appellant understood everything that was
occurring and was merely being intentionally
argumentative and disruptive. We hold that the trial
judge did not abuse her discretion by refusing to hold
a hearing during trial inquiring into appellant's
competence. See id. at 426; Moore v. State, 999 S.W.2d
385, 395 (Tex. Crim. App. 1999), cert, denied, 530 U.S.
1216 (2000); Francis v. State, 877 S.W.2d 441, 445
(Tex. App.-Austin 1994, pet. ref'd) ("Unruly or
disruptive courtroom behavior is not in itself evidence
of incompetence.").
(Mem. Op. 4-12, doc. 24-4 (footnotes omitted).)
The Due Process Clause of the Fourteenth Amendment to the
United States Constitution requires that the trial of an accused
be conducted only when he is mentally competent. See Cooper v.
Oklahoma, 517 U.S. 348, 354 (1996); Medina v. California, 505

U.S. 437, 453 (1992). Therefore, the trial and conviction of a
defendant while he is mentally incompetent constitutes a denial
of the defendant's due process right to a fair trial. See Cooper,
517 U.S. at 354; Medina, 505 U.S. at 453; Drope v. Missouri, 420
U.S. 162, 171-72 (1975); Pate v. Robinson, 383 U.S. 375, 378
(1966).
To be competent to stand trial, it is not enough that the
defendant is oriented to time and place and has some recollection
of events. See Dusky v. United States, 362 U.S. 402, 402 (I960) .
Rather, "the test must be whether he has sufficient present
ability to consult with his lawyer with a reasonable degree of

16

Case 4:16-cv-00015-A Document 52 Filed 10/20/17

Page 17 of 42 PagelD2008

rational understanding-and whether he has a rational as well as
factual understanding of the proceedings against him." Id.;
accord Cooper, 517 U.S. at 354; Godinez v. Moran, 509 U.S. 389,

396 (1993) .
Further, the issue of competency may arise in two distinct
contexts in a habeas-corpus proceeding. See United States v.
Williams, 819 F.2d 605, 607-09 (5th Cir. 1987); Enriquez v.
Procunier, 752 F.2d 111, 113-14 (5th Cir. 1984); Johnson v.
Estelle, 704 F.2d 232, 237 (5th Cir. 1983); Lokos, 625 F.2d at
1261-62. First, a habeas petitioner may allege that state
procedures were inadequate to ensure that he was competent to
stand trial. See id. at 1261 (citing Pate, 383 U.S. at 375).
Thus, a petitioner may claim that the evidence before the trial
court presented a bona fide doubt as to his competency and,
therefore, the court was required to hold a competency hearing
before proceeding to trial. See Williams, 819 F.2d at 607;
Enriquez, 752 F.2d at 113; Johnson, 704 F.2d at 238.
Alternatively, a habeas petitioner may collaterally attack his
conviction by showing that at the time of trial he was
incompetent in fact. See Williams, 819 F,2d at 607; Johnson, 704
F.2d at 238; Lokos, 625 F.2d at 1261; Zapata v. Estelle, 588 F.2d
1017, 1020-21 (5th Cir. 1979).

17

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 18 of 42 PagelD2009

The inquiry under the Pate procedural due process standard
is whether the trial judge received information which,
objectively considered, "should reasonably have raised a doubt
about the defendant's competency and alerted [the court] to the
possibility that the defendant could neither understand the
proceedings or appreciate their significance, nor rationally aid
his attorney in his defense." Williams, 819 F.2d at 607. Although
the Supreme Court has not articulated a general standard for the
nature or quantum of evidence necessary to trigger a competency
hearing, it has focused on three factors that should be
considered: (1) the existence of a history of irrational
behavior; (2) the defendant's bearing and demeanor at the time of
trial; and (3) prior medical opinions. See Williams, 819 F.2d at
608; Enriquez, 752 F.2d at 113; Lokos, 625 F.2d at 1261. Under
the Pate test, to avoid a procedural due process violation, a
trial court must inquire into the defendant's mental capacity sua
sponte if the evidence raises a bona fide doubt as to his
competency. See Pate, 383 U.S. at 385-86; Mclnerney v. Puckett,
919 F.2d 350, 351-52 (5th Cir. 1990). If a Pate violation is
established, the federal habeas court must consider whether a
meaningful hearing can be held nunc pro tunc to determine
retrospectively the petitioner's competency as of the time of

18

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 19 of 42 PagelD 2010

trial. See Williams, 819 F.2d at 609; Lokos, 625 F.2d at 1262. If
so, the petitioner bears the burden of proving his incompetence
by a preponderance of the evidence; if not, the habeas writ must
be granted, subject to retrial at the state's discretion. See id.
As to the substantive inquiry, incompetency may be raised in
a post-conviction proceeding even if no competency hearing was
requested by the defendant at or before the state trial. See
Enriquez, 752 F.2d at 114; Zapata, 588 F.2d at 1021.
Nevertheless, "[t]he burden imposed upon a habeas petitioner to
demonstrate incompetency in fact at the time of trial is
extremely heavy." Johnson, 704 F.2d at 238. The Supreme Court has
upheld the approach, adopted under Texas law, that, at trial, the
"State may presume that the defendant is competent and require
him to shoulder the burden of proving his incompetence by a
preponderance of the evidence." Cooper, 116 S.Ct. at 1377;
Medina, 505 U.S. at 449; Bouchillon v. Collins, 907 F.2d 589, 592
(5th Cir. 1990). To prevail on an incompetency claim on federal
habeas review, the "petitioner must present facts sufficient ‘to
positively, unequivocally and clearly generate a real,
substantial and legitimate doubt as to [his] mental capacity . .
. to meaningfully participate and cooperate with counsel. . .
Williams, 819 F.2d at 609 (quoting Bruce v. Estelle, 483 F.2d

19

t //

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 20 of 42 PagelD 2011

1031, 1043 {5th Cir. 1973)); accord Enriquez, 752 F.2d at 114;
Johnson, 704 F.2d at 238; Reese, 600 F. 2d at 1093.
In this case, petitioner claims both that the state trial
court erred by failing to conduct a hearing on his competency to
stand trial sua sponte and that he was, in fact, incompetent at
the time of trial in April 2012. However, based on the available
evidence before the trial court and deferring to the state
courts' finding that petitioner was competent to stand trial,
petitioner has not demonstrated that his demeanor in court and
exchanges with the trial court were sufficient to raise a bona
fide doubt as to his competency. Nor does petitioner demonstrate
that the evidence before the trial court positively,
unequivocally and clearly generated a real, substantial and
legitimate doubt as to his mental competency at the time of
trial. Consequently, the trial court was not obligated to hold a
competency hearing and the state courts' reasonably found that
petitioner was not incompetent and that he was simply acting out
in the courtroom. Petitioner fails to present clear and
convincing evidence to overcome the presumption of correctness
afforded the trial court's finding that he was in fact competent
to stand trial and during trial.
Under his fourteenth ground, petitioner claims that, in

20

Case 4:l6-cv-000l5-A Document 52 Filed 10/20/17 Page 21 of 42 PagelD20l2

violation of his constitutional rights, the trial court failed to
conduct a personal inquiry into his complaint about his counsel.
(Pet., Insert, doc. 1.) Petitioner directs the court to an,
exchange with the court immediately preceding voir dire where he
expressed his belief that counsel was giving him "insufficient
counseling," asking him questions to hurt him, and working with
the DA against him.

(Reporter's R., vol, 2, 41, doc. 24-7.)

The state habeas court entered the following relevant
factual findings regarding this issue:
77.

Applicant was a very argumentative and difficult
client.

78.

Applicant admits he complained about counsel at
the start of trial.

79.

Applicant presents no credible evidence that Hon.
Harris should have been removed as counsel.

(State Habeas R. 235, doc. 24-42 (record citations omitted.)
Relying on its findings, and citing to Wheat v. United
States, 486 U.S. 153 (1988), and relevant state law, the state
court concluded:
41.

The right to counsel of one's own choosing is not
unqualified or absolute.

42.

The right to counsel of choice "cannot be insisted
upon or manipulated so as to obstruct the orderly
procedure in the courts or to interfere with the
fair administration of justice."

21

Case 4:16-cv-000l5-A Document 52 Filed 10/20/17 Page 22 of 42 PagelD 2013

43.

The right to retain counsel of one's choosing
"must be balanced with a trial court's need for
prompt and efficient administration of justice."

44 .

If the request is made at the "eleventh hour," the
court has the discretion to deny the request for
new counsel.

45.

Applicant has failed to prove that counsel should
have appointed him new counsel.

(Id. at 241 (citations omitted).)
The state court's rejection of petitioner's claim comports
with Wheat and Fifth Circuit case law. See United States v.
Fields, 483 F.3d 313, 350 (5th Cir. 2007)

(providing “indigent

defendants have no right to appointed counsel of their choice");
United States v. Dilworth, 524 F.2d 470, 472 (5th Cir. 1975)
(providing “the vague allegation of 'dissatisfaction' with
counsel, unsupported by any specific instances of . .
inadequate representation, raised on the eve of trial . .

* t

strongly suggests that the motion for a continuance was merely a
pretext for delay"); United States v. Woods, 487 F.2d 1218, 1220
(5th Cir. 1974) (providing "[a]n eleventh-hour objection by a
defendant who enjoyed ample time to make his viewpoint known is,
of course, an intolerable disruption of the criminal justice
process").

22

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 23 of 42 PagelD 2014

D. State Habeas Court Decision
Under his fourth ground, petitioner claims the state habeas
court improperly decided his ineffective-assistance-of-counsel
claims by relying exclusively on counsel's affidavit rather than
having the required hearing. (Pet. 7, doc. 1.) Alleged defects in
state habeas-corpus proceedings, including the state court's
failure to hold a live evidentiary hearing, are not cognizable on
federal habeas review. See Rudd v. Johnson, 256 F.3d 317, 320
(5th Cir. 2001); Trevino v. Johnson, 168 F.3d 173, 180 (5th Cir.
1999). Nor does the absence of a live hearing on state habeas
review render the process deficient. See Hill v. Johnson, 210
F,3d 481, 489-90 (5th Cir. 2000) (providing "a paper hearing is
sufficient to afford a petitioner a full and fair hearing on the
factual issues underlying his claims"). Petitioner's reliance on
case law of other circuit courts in support of his claim does not
aid him as this court is bound by Fifth Circuit authority.
(Pet'r's Mem. 9-11, doc.2.)
E. Ineffective Assistance of Trial Counsel
A criminal defendant has a constitutional right to the
effective assistance of counsel at trial. U.S. Const, amend. VI,
XIV; Bvitts v. Lucey, 469 U.S. 387, 393-95 (1985); Strickland v.
Washington, 466 U.S. 668, 688 (1984). To establish ineffective
23

Case 4:16-cv-00015-A Document 52 Filed 10/20/17

Page 24 of 42 PagelD 2015

assistance of counsel, a petitioner must show (1) that counsel's
performance fell below an objective standard of reasonableness,
and (2) that but for counsel's deficient performance the result
of the proceeding would have been different. Strickland, 466 U.S.
at 688. In applying this test, a court must indulge a strong
presumption that counsel's conduct fell within the wide range of
reasonable professional assistance. Id. at 668, 688-89. Judicial
scrutiny of counsel's performance must be highly deferential and
every effort must be made to eliminate the distorting effects of
hindsight. Id. at 689.
The Supreme Court emphasized in Harrington v. Richter the
manner in which a federal court is to consider an ineffectiveassistance-of-counsel claim raised in a habeas petition subject
to AEDPA's strictures:
The pivotal question is whether the state court's
application of the Strickland standard was
unreasonable. This is different from asking whether
defense counsel's performance fell below Strickland's
standard. Were that the inquiry, the analysis would be
no different than if, for example, this Court were
adjudicating a Strickland claim on direct review of a
criminal conviction in a United States district court.
Under AEDPA, though, it is a necessary premise that the
two questions are different. For purposes of §
2254(d)(1), "an unreasonable application of federal law
is different from an incorrect application of federal
law." A state court must be granted a deference and
latitude that are not in operation when the case
involves review under the Strickland standard itself.
24

Case 4:l6-cv-000l5-A Document 52 Filed 10/20/17 Page 25 of 42 PagelD 2016
562 U.S. at 101 (quoting Williams, 529 U.S. at 410)).
Accordingly, it is necessary only to determine whether the state
courts' resolution of petitioner's ineffective-assistance claims
was contrary to or an objectively unreasonable application of
Strickland. Bell v. Cone, 535 U.S. 685, 698-99 (2002); Kittelson

v. Dretke, 426 F.3d 306, 315-17 (5th Cir. 2005); Schaetzle, 343
F.3d at 443.
Petitioner was represented at trial by William S. Harris,
who had been licensed to practice law since 1976 and board
certified in criminal law since 1988. (State Habeas R. 214, doc.
24-42.) Under grounds five through thirteen, petitioner claims
counsel was ineffective by: (1) failing to investigate and
develop evidence regarding Saudi Taylor's statements to police
and during trial and failing to obtain expert ballistic evidence
to undermine her testimony; (2) failing to raise a Batson
objection and move to strike the jury panel and the prosecutor's
peremptory challenge concerning black jurors; (3) failing to
request a competency hearing; (4) failing to investigate a prior
mental illness history for an insanity defense; (5) informing the
trial judge that his client was about to commit perjury at trial;
(6) failing to request a renewed examination of petitioner's
fitness when petitioner was removed from the courtroom due to his

25

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 26 of 42 PagelD2017

disruptive, belligerent, and explosive behavior; (7) failing to
obtain medical records for Oscar Roney and cross-examine the
paramedic who treated Roney; and (8) failing to communicate the
state's original plea offer to him and allowing the offer to
lapse. (Pet. Insert, doc. 1.)
Petitioner raised his ineffective-assistance claims in his
state habeas application, and counsel submitted an affidavit in
response, which the state court found credible and supported by
the record, stating (all spelling, punctuation and/or grammatical
errors are in the original):
I was appointed by the court to represent Finnis
Davis, II. I met with Mr. Davis in the Tarrant County
jail on several occasions. He informed me that he had
been treated by Mental Health Mental Retardation of
Tarrant County. I obtained his records from MHMR, and
had him evaluated by Dr, Richard Schmitt PhD. Dr.
Schmitt formed the opinion that Mr. Davis was not
competent to stand trial. I raised this issue with the
396th District Court and the court ordered an
evaluation by Dr. William Barry Norman, PhD, who also
concluded that Mr. Davis was not competent to stand
trial. Both doctors cautioned that they believed he
might be malingering in the symptoms that he described
and presented. Nonetheless, Mr. Davis was sent to the
Vernon State Hospital for treatment and observation. He
was returned from that hospital after they concluded he
was competent to stand trial. The court entered a
finding of competency to stand trial.
Mr. Davis
on the evening
contradictory,
identified and

gave several accounts of his whereabouts
of the offense. Some of them were
but two of his alibi witnesses were
interviewed. One, in fact, did not

26

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 27 of 42 PagelD 2018

provide an alibi for the critical time and the other
gave a statement of time that Mr. Davis was with her
that was not consistent with Mr. Davis' account or that
of the other alibi witness.
Ground for Relief Ones
In his first ground for relief, Mr. Davis, charges
that I was ineffective for failing to challenge Saudi
Taylor's account of the number of shots fired during
the attack on her and Oscar Roney. He also accused me
of being ineffective for not hiring a ballistics expert
to challenge the physical evidence regarding the number
of sharp shots fired.
First, Mr. Davis, alleges that the evidence was
that the shots were fired from the back of the car.
This was not the evidence. The evidence was that the
car Mr. Davis was driving pulled alongside the car
being driven by Mr. Roney and shots were fired toward
the side of the car. Ms. Taylor said she recalled four
shots but then added that she wasn't really counting
and she wasn't sure of the number. Ms. Taylor said that
Mr. Davis pulled in front of them, forcing them to a
stop, got out of his car approached the side of Mr.
Roney's car and fired twice again.
It has been my experience that people who are
being shot at frequently have a less than perfectly
accurate recollection of the number of shots that were
fired. However, there was nothing inconsistent in the
evidence with Ms. Taylor's account. At trial the
state's crime scene search officer testified that he
recovered one bullet from the right front floorboard of
the car and that there was a bullet hole in the
doorpost behind the driver seat that he believed was
created by a separate shot because of the trajectory.
He also testified that both front windows and the
sunroof of Mr. Roney's car were open. Thus, it was
quite possible that some of the shots either missed the
car entirely or passed through the open windows on both
sides of the car.

27

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 28 of 42 Page ID 2019

Mr. Davis also complains about a failure to look
for gunshot residue. Gunshot residue is detectible on
the hands of people who have fired a gun for a short
time after the gun is fired. The trace evidence is
quickly lost either in the friction of normal use of
the hands or from washing the hands. There was no
evidence that either Mr. Roney or Ms. Taylor fired a
gun. Additionally, any testing for gunshot residue
would have necessarily had to have been done within
hours after the shooting. Mr. Davis was not arrested
that evening but surrendered later. The surrender
occurred at a point where there would've been no need
to test his hands for gunshot residue.
Mr. Davis also complains about my failure to
request the appointment of a ballistics expert. I saw
nothing in the offense report nor the testimony of the
states witness that contradicted any of the evidence
with respect to the direction from which the shots were
fired and the wounds that were inflicted. Further, the
firearm that was used in this case was never recovered.
Thus, there was no firearm against which to test the
one intact bullet that was recovered. There was no
legal justification for the appointment of a ballistics
expert in this case in my opinion.
Ground for Relief Two:
Mr. Davis also accused me of ineffective
assistance for failing to make a Batson objection with
respect to the seated jury. It has been several years
since I tried this case and I do not specifically
remember how many minority jurors may have been
stricken by the state peremptorily. However, I am very
familiar with the doctrine that was first enunciated in
Batson vs. Kentucky. I have made such objections
following the seating of a jury many times in criminal
trials. I do not make such objections frivolously. I
only make such an objection if I can identify minority
jurors are who have been stricken by the state with a
peremptory challenge, and there is no apparent race
neutral justification for striking the venire person.
The fact that I made no such objection is this case

28

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 29 of 42 PagelD 2020

suggests to me that either no such strikes were made by
the state or, more likely, I could readily identify a
race neutral reason for the state striking the juror.
Ground for Relief Three:
Mr. Davis's charges that I was ineffective for
failing to request a competency hearing after his
return from Vernon State Hospital. The record reflects
that the court entered a finding that he was competent
on December 9, 2011. As mentioned previously, both Drs.
Schmitt and Norman suspected that Mr. Davis was
malingering. The report from the psychologist at Vernon
State Hospital supported that conclusion. Mr. Davis
made a sudden and almost miraculous recovery after he
arrived at the hospital. Further, the report from
Vernon State Hospital reflected that none of their
trained staff observed conduct by Mr. Davis that was
consistent with the symptoms he was claiming. There was
no basis, in light of all of this evidence, to ask for
a hearing to contest the issue of Mr. Davis's
competency.
Further, in my interactions with Mr. Davis
following his return he demonstrated knowledge of the
charges against him and suggested numerous strategies
for disproving his guilt. There simply was nothing to
suggest after his return that he was not competent to
stand trial. For that reason I did not challenge the
court's finding of competency.
The doctor at Vernon State Hospital observed in
her report that Mr. Davis was argumentative and
demanding and that he would be a difficult client. That
observation is totally consistent with my experience in
trying to represent Mr. Davis. Nevertheless, from that
point forward I did not see anything that would cause
me to believe that the competency determination was
inaccurate or that the report from Vernon State
Hospital was incorrect. Therefore I did not ask for any
further determination of his competency to stand trial.

29

Case 4:16-CV-00015-A Document 52 Filed 10/20/17 Page 30 of 42 PagelD 2021

Ground for Relief Five:
Mr. Davis charges me with ineffective assistance
for failure to investigate a threatening letter that he
said he received while in jail. The letter appears to
threaten retaliation against him for his attack on
Saudi Taylor, but is unsigned. At my direction, my
investigator, Wes Bearden, who also was cocounsel in
this case, attempted to interview Ms. Taylor. When the
investigator identified himself as a private
investigator working for Mr. Davis she said, "no
comment" and slammed the door in his face. I did not
believe that a gamble that Ms. Taylor might have
written the letter or had it written was strategically
wise since I did not know her answer.
Moreover, it was my investigator's opinion that
the handwriting on the letter was consistent with Mr.
Davis's handwriting. I have no opinion on that, but I
believed that the letter in tone appears to have been
written by a third-party seeking to protect Ms. Taylor.
Mr. Roney was an obvious candidate for that role. He
denied writing the letter.
Even if Ms. Taylor had directed the writing of the
letter, in light of what happened to her I did not
think that drawing out the fact that she had written
this letter or solicited its writing would benefit Mr.
Davis. Having been shot in the leg and had her face
pounded into the concrete several times breaking a
tooth seemed to me to be logically likely to cause a
person to threaten revenge if the legal system did not
deliver justice. In my opinion, the letter, while it
may have reflected animus toward the defendant, had no
relevance to show that he was not the person who had
committed the crime. Her dislike for the Mr. Davis and
what he did to her was already amply apparent in her
testimony.
Ground for Relief Six:
Mr. Davis accuses me of being ineffective for
failing to investigate his prior mental history and

30

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 31 of 42 PagelD 2022

raise an insanity defense. First, I did investigate his
prior mental history, I obtained and read his mental
health mental retardation records and provided them to
Dr. Schmitt for his initial evaluation. They were part
of Dr. Schmitt's basis, despite his concerns about
malingering, for finding the defendant incompetent to
stand trial.
Second, the evaluations done of Mr. Davis at
Vernon State Hospital, in my opinion, confirmed that he
was malingering and faking his symptoms. That certainly
was consistent with the type of manipulative client he
was throughout my representation of him. During our
conversations after his return from Vernon State
Hospital he gave no indication that he did not
understand that shooting somebody was wrong. Moreover,
he consistently denied having been the person who shot
Mr. Roney and Ms. Taylor.
The insanity defense is what is characterized as
an admission and avoidance defense. It requires that
the person seeking to assert the defense first admit
that he committed the act that constitutes the crime.
Prior to trial Mr. Davis consistently insisted that he
was not guilty of the crime. The combination of these
factors gave no basis for giving notice of an insanity
defense at trial. I did consider that defense. I
rejected the defense because after investigation I saw
no basis for its assertion. I still do not.
Ground for Relief Seven:
Mr. Davis charges I was ineffective for having
disclosed that he appeared to be trying to commit
perjury in his testimony.
Shortly after the trial started, in a conference
in the holding area behind the court room, Mr. Davis
told Mr. Bearden and me for the first time that he had
committed the offense. My recollection is that he
wanted to see if a plea-bargain could be obtained at
this late date. The state was uninterested at this
point in any plea bargaining. Nevertheless, I found the

31

Case 4:16-cv-000l5-A Document 52 Filed 10/20/17 Page 32 of 42 PagelD2023

admission extremely significant, because it was the
only statement about his culpability that Mr. Davis
made, that was consistent with the overwhelming
evidence in the case. At the time he made the statement
he had also informed me that he did not wish to testify
at his trial.
During the trial, Mr. Davis was disruptive and
difficult. He was cautioned several times by the judge
that his misbehavior might result in his being excluded
from the courtroom. On at least one occasion he yelled
at the witness, Saudi Taylor, that she lied.
After the state rested its case Mr. Bearden and I
met with Mr. Davis again in the holding cell behind the
courtroom. At that time Mr. Davis informed me that he
was going to testify. I strongly advised him not to,
but he insisted that he was going to testify. I then
informed him that because he had told me that he had
committed the offense, if he took the stand and began
to say that he was not there or did not commit the
offense or anything to that effect I would be ethically
required to stop the proceeding and inform the judge in
camera that he was about to commit perjury.
Mr. Davis took the stand and I began to lead him
through direct examination. He demonstrated a
determination to address the jury independent of the
questions I asked him. After several admonitions by the
court, he turned to the jury and said that he had been
locked up for 23 months for something he did not do.
This was not a responsive answer to my question, but it
clearly indicated that he was going to tell the jury
that he had not committed the crime. I asked the court
to excuse the jury and allow me to address an issue
with her ex parte in chambers on the record. That
motion was granted.
In chambers I informed the judge that, based on
his statement that he had been locked up for something
he did not do, I believed he was contemplating
committing perjury. I informed her that I had discussed
this with him and tried to dissuade him from doing it.

32

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 33 of 42 PagelD 2024

I had told him this in Mr. Bearden's presence and we
had both tried to dissuade him from that course. When I
told him that I believed a statement that he did not do
it would be perjury he asked why believed that. I told
him I believed it because he had admitted committing
the offense to me at the beginning of the trial. His
response was to point out that he had told me several
different stories regarding his participation or lack
of participation in this crime and asked me why
believed the story that he did it. I replied that it
was the first account he had given me that was
consistent with all of the rest of the evidence. I
explained that if he tried to commit perjury X would
have to inform the court and ask to withdraw. At this
point he began to curse me and I terminated the
conversation.
The judge ordered me to ask him no questions
beyond asking him to tell the jury what he wanted to
say. She explained this process to Mr. Davis outside
the presence of the jury. The jury was brought back
into the courtroom I asked Mr. Davis to tell the jury
what he wanted them to know about his participation in
the crime. Mr. Davis began a contentious dispute with
the judge and a diatribe against me accusing me of
having abandoned him and left him without counsel
during trial. In accordance with the judge's
instructions I did not respond.
Ultimately, the judge could not get Mr. Davis to
directly address the crime and after several
admonishments and outbursts from Mr. Davis she excluded
him from the courtroom. During the remainder of the
trial on guilt Mr. Davis could be heard screaming from
the holdover that he was being railroaded and begging
the jury to deliver a "hung jury". The jury found him
guilty.
During the punishment phase, the judge allowed Mr.
Davis to return to the courtroom wearing a stun belt to
guarantee his good behavior.

33

Case 4:16-cv-000l5-A Document 52 Filed 10/20/17 Page 34 of 42 PagelD 2025

Ground for Relief Eight:
Mr. Davis also accuses me of ineffectiveness for
failing to request a new competency examination when he
became disruptive in the courtroom. First, I note that
none of the three psychologists who examined Mr. Davis
concluded that he was in fact suffering from
schizophrenia.
Second, nothing in his conduct at trial indicated
to me that he was acting out because he was inspired by
delusions, hallucinations, voices ordering him to do so
or anything else that suggested that his actions were
caused by mental illness as opposed to his
argumentative and manipulative personality. In my
professional judgment, I simply saw no evidence that he
was not competent to stand trial. What I saw was a
continuation of his manipulative and argumentative
behavior. I do not believe the court saw it
differently. In fact, in light of the fact that the
court has a duty to spontaneously order such an
examination if she independently comes to believe that
a defendant has become incompetent during the trial,
and did not do so, suggests that she also did not
believe Mr. Davis' conduct suggested incompetency.
Ground for Relief Nine:
Mr. Davis accuses me of ineffective assistance for
not requesting the medical records of Oscar Roney.
While it has been several years since I tried this
case, I believe I did have the medical records on Mr.
Roney through discovery from the state. Further, the
testimony by the crime scene officer and the weapons
examiner both suggested that the bullet that had struck
Mr. Roney in the back of the head had first hit the
door pillar behind his seat. The testimony of the crime
scene officer was that that was a separate shot from
the bullet he recovered and that bullet probably
fragmented. This would have been consistent with the
description of the wound that Mr. Davis complains
about,

34

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 35 of 42 PagelD2026

After the trial, I returned to the district
attorney the documents that I had received during
discovery. At the time of my representation of Mr.
Davis, article 39.14 of the Texas code of criminal
procedure had not yet been amended pursuant to the
"Michael Morton Act." The District Attorney of Tarrant
County provided discovery through an agreement that X
and other members of the defense bar in Tarrant County
entered into. In that contract the items received in
discovery were to be considered property of the
district attorney to be held in trust by the defense
attorney for use during trial. The constraints of that
agreement were very similar to the constraints placed
on a defense attorney's use of discovery now under the
amended law. At the conclusion of the case I returned
the discovery to the district attorney. While I do not
now remember whether Mr. Roney's medical records were
included in the discovery, I do not see any
inconsistency between the paramedics description of the
wound and the explanation that the bullet fragmented
upon hitting the doorpost and then traveled into Mr.
Roney's head. That is consistent with the photographs I
saw, the testimony of the persons at the scene of the
crime and the testimony of the victims. Mr. Roney, who
had originally declined to identify the defendant as
his attacker, explained during trial that he had done
so because he was contemplating taking vengeance upon
the defendant himself. He explained that ultimately he
decided this was wrong. He also explained in his
testimony that he knew the defendant and that the
defendant was his assailant on the night of the attack.
Ground for Relief Eleven:
Mr. Davis accused me of rendering ineffective
assistance of counsel by not explaining to him the
ramifications of a plea offer. Mr. Davis was
consistently argumentative any time I tried to explain
anything that he did not agree with. I recall that on
numerous occasions I attempted to discuss with him the
possibility of plea negotiation and that if we
proceeded to trial he faced a penalty range of up to
life in prison. Mr. Davis consistently argued that he

35

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 36 of 42 PagelD2027

was not guilty of this offense and interrupted any such
explanation until shortly after trial began. He was not
receptive to the discussion of plea bargaining nor was
he willing to listen to explanations of the strategic
reasons for plea bargaining in his case. When a client
insists to me that he is innocent and will not plead
guilty, I do not think I can ethically try to persuade
him to accept a plea even if the evidence against him
is overwhelming. That is not my practice and it was not
my practice in this case. I do not at this time
specifically recall a plea offer of 20 years being
made, but I do distinctly recall that any discussions
of plea bargaining quickly devolved into argument. I
think Mr. Davis did want to plea negotiate after the
trial began when he told me that he was guilty of the
offense, but my recollection is that the state was not
interested in plea negotiation at that point.
I may well have advised Mr. Davis not to accept a
20 year plea offer during the initial stages of my
representation of him. At that time, he was telling me
that he had not committed the offense. I also had not
had adequate time to complete discovery or investigate
the case. I did on several occasions attempt to discuss
with Mr. Davis the evidence against him. As previously
stated, this usually devolved into argument and denial
by Mr. Davis of his participation in the offense. I did
not bring him to a discovery hearing because, as
mentioned earlier, discovery in Tarrant County was
provided by agreement without need for hearing on a
motion for discovery.
While, as stated, I do not specifically recall a
twenty-year offer, I do not dispute that one may have
been made very early in the case. I do note, that I
found in Mr. Bearden's files a consultation docket form
in which the state informed Mr. Davis that the penalty
range for aggravated assault with a deadly weapon was 2
to 20 years. It also stated that at that time no plea
offer was being made.
Finally, in passing, I did not address ground for
relief number four because it complained of a failure

36

Case 4:16-cv-000l5-A Document 52 Filed 10/20/17 Page 37 of 42 PagelD 2028

of action by the trial court. However, in the ground
for relief Mr. Davis accuses me of having threatened to
testify against him. I never made any such threat. I
never testified against Mr. Davis. I simply followed,
as I told him I would, the procedure I understand to be
necessary when an attorney has cause to believe his
client is about to commit perjury. Following Mr.
Davis's attempt to commit perjury I was ordered by the
court not to participate in his questioning before the
jury. I obeyed the order of the court.
(State Habeas R. 214-26, doc. 24-42.)
The state habeas court adopted factual findings consistent
with counsel's affidavit, too numerous to list here, and,
applying the Strickland standard, concluded that counsel's acts
and omissions were the result of reasonable trial strategy or
that there was no evidentiary basis to support the claims; that
petitioner failed to prove counsel's representation fell below an
objective standard of reasonableness; and that petitioner failed
to demonstrate a reasonable probability that the outcome of his
trial would have been different had counsel done anything
differently. (Td. at 237-40.) Petitioner has not presented clear
and convincing evidence refuting the presumption of correctness
of the state court's findings; thus, the court has relied upon
the presumptive correctness of those findings in considering
petitioner's claims. Applying the appropriate deference, and
having independently reviewed petitioner's claims in conjunction

37

Case4:16-cv-000l5-A Document 52 Filed 10/20/17 Page 38 of 42 PagelD2029

with the state court records, the state courts' adjudication of
the claims is not contrary to or an unreasonable application of
Strickland. A petitioner shoulders a heavy burden to refute the
premise that "an attorney's actions are strongly presumed to have
fallen within the wide range of reasonable professional
assistance." Messer v. Kemp, 760 F.2d 1080, 1090 {11th Cir.
1985). Petitioner presents no evidentiary, factual, or legal
basis in this federal habeas action that could lead the court to
conclude that the state courts unreasonably applied the standards
set forth in Strickland based on the evidence presented in state
court. 28 U.S.C. § 2254(d). Strategic decisions by counsel after
adequate investigation are virtually unchallengeable and
generally do not provide a basis for habeas-corpus relief.
Knowles v. Mirzayance, 556 U.S. Ill, 124 (2009). Nor are
petitioner's conclusory allegations of ineffective assistance
sufficient to raise a constitutional issue. See Ross v. Estelle,
694 F.2d 1008, 1012 (5th Cir. 1983). Additionally, the evidence
of petitioner's guilt was overwhelming, precluding him from
establishing prejudice. See Pondexter v. Quarterman, 537 F.3d
511, 524 (5th Cir. 2008).
F. Prosecutorial Misconduct
Under his final ground, petitioner claims he was denied due

38

Case 4:16-cv-00015-A Document 52 Filed 10/20/17 Page 39 of 42 PagelD 2030

process due to prosecutorial misconduct and Brady violations.
(Pet. Insert, doc. 1.) In support, he provides the following
facts:
The district attorney stated at pre-trial held on April
9, 2012, that there was only one bullet found at the
crime scene. At trial commencing on April 10, 2012, in
the presence of the jury the attorney for the State
allowed witness Saudi Taylor, to commit perjury as to
the number of shots fired at Mr. Roney's ear while they
were inside of his vehicle. The attorney for the State
withheld Mr. Roney's medical records from the record
and the Jury. There was no physician's expert testimony
in the petitioner's trial.
(Id.)
The state habeas court entered the following factual
findings on these claims:
84.

Applicant presents evidence of inconsistent
testimony.

87.

Applicant presents no evidence that Ms. Taylor
testified falsely.

88.

Applicant presents no evidence that the State
suborned perjury.

89 .

Applicant presents no evidence that the State
failed to disclose Mr. Roney's medical records.

(State Habeas R. 236, doc. 24-42 (citations to the record
omitted.)
Based on its findings, and citing to United States v. Bagley

39

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 40 of 42 PagelD2031

and relevant state law, the state court entered the following
legal conclusions:
47.

The State may not obtain a conviction through the
use of perjured testimony.

48.

Knowingly using perjured testimony amounts to
prosecutorial misconduct.

49.

Unknowing use of perjury is considered a due
process violation.

50.

Inconsistent testimony goes to the credibility of
the State's witnesses and does not establish the
use of perjured testimony.

51.

Applicant has failed to prove that Ms. Taylor
testified falsely.

52.

Applicant has failed to prove that the State
presented false testimony.

53.

A due process claim of failure to disclose
exculpatory evidence requires a showing that the
state failed to disclose evidence, regardless of
the prosecution's good or bad faith, the withheld
evidence is favorable to the defendant, and the
evidence is material, meaning that there is a
reasonable probability that the outcome of the
trial would have been different if the evidence
had been disclosed.

54 .

Applicant has failed to prove that the State
failed to disclose evidence.

(Id. at 241-42 (citations omitted).)
Petitioner has not demonstrated that the state court's
adjudication of the first issue was contrary to, or involved an
unreasonable application of, clearly established Supreme Court

40

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 41 of 42 PagelD2032

precedent, and the state court's decision comports with Fifth
Circuit case law. See Kirkpatrick v. Whitley, 992 F.2d 491, 497
(5th Cir. 1993). See also Little v. Butler, 848 F.2d 73, 76 (5th
Cir. 1988)

(inconsistencies in witnesses' testimony at trial are

to be resolved by trier of fact and do not suffice to establish
that certain testimony was perjured). Petitioner has failed to
show that Taylor's testimony was actually false, that the
prosecution knew her testimony was false and failed to correct
it, or that her testimony regarding the number of shots fired was
material given other evidence that more than one shot was fired.
Nor has petitioner demonstrated that the state court's
adjudication of the Brady issue was contrary to, or involved an
unreasonable application of, clearly established Supreme Court
precedent. Under Brady v. Maryland, 373 U.S. 83 (1963), the state
has an affirmative duty to disclose evidence favorable and
material to a defendant's guilt or punishment. Petitioner fails
to show that the state was in possession of Roney's medical
records and suppressed or withheld them or that the records would
have been favorable to him.
For the reasons discussed herein,
The court ORDERS that petitioner's petition for a writ of
habeas corpus pursuant to 28 U.S.C. § 2254 be, and is hereby,

41

Case 4:l6-cv-00015-A Document 52 Filed 10/20/17 Page 42 of 42 PagelD2033
denied. The court further ORDERS that a certificate of
appealability be, and is hereby, denied, as petitioner has not
made a substantial showing of the denial of a constitutional
right.
SIGNED October

2t> ,

2017.

✓

UDGE

42

Case4:16-cv-00015-A Document 53 Filed io/?n/i7
T

Page i nf 1 Pagotn on™
U.S. DISTRICT”COURT
NORTHERN DISTRICT OF TEXAS

FILED

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
00T
FORT WORTH DIVISION
FINNIS DAVIS II,
Petitioner,
v.
LORIE DAVIS, Director,
Texas Department of Criminal
Justice, Correctional
Institutions Division,
Respondent.

2 0 2017

CLERK, U.S. DISTRICT COURT
' By
v,

§
§
§
§
§
§
§
§
§
§
§
§

Deputy

No. 4:16-CV-015-A

FINAL JUDGMENT
In accordance with the opinion signed by the Court on even
date herewith,
The Court ORDERS,

ADJUDGES,

and DECREES that the petition

pursuant to 28 U.S.C. § 2254 filed by petitioner, Finnis Davis II,
in the above-captioned action be, and is hereby, denied.
SIGNED October

, 2017.

MCBRYDE
ITED

